<html>
<title> - THE UNITING AMERICAN FAMILIES ACT: ADDRESSING INEQUALITY IN FEDERAL IMMIGRATION LAW</title>
<body><pre>[Senate Hearing 111-560]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-560

  THE UNITING AMERICAN FAMILIES ACT: ADDRESSING INEQUALITY IN FEDERAL 
                            IMMIGRATION LAW

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 3, 2009

                               __________

                          Serial No. J-111-27

                               __________

         Printed for the use of the Committee on the Judiciary






                  U.S. GOVERNMENT PRINTING OFFICE
57-633 PDF               WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY O. GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
RON WYDEN, Oregon
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel










                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................    76
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    85
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................    24
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     3

                               WITNESSES

Beck, Roy, Founder and Chief Executive Officer, NumberUSA 
  Education & Research Foundation, Arlington, Virginia...........    15
Bond, Julian, Chairman, National Board of Directors, National 
  Association for the Advancement of Colored People (NAACP), 
  Washington, D.C................................................    11
Nadler, Hon. Jerrold, a Representative in Congress from the State 
  of New York....................................................     4
Nugent, Christopher, Co-Chair, Committee on the Rights of 
  Immigrants, Section of Individual Rights and Responsibilities, 
  American Bar Association, Washington, D.C......................    13
Speier, Hon. Jackie, a Representative in Congress from the State 
  of California..................................................     6
Stewart, Gordon, London, England.................................     9
Tan, Shirley, Pacifica, California...............................     7
Vaughan, Jessica M., Director, Policy Studies, Center for 
  Immigration Studies, Center for Immigration Studies, Franklin, 
  Massachusetts..................................................    18

                       SUBMISSIONS FOR THE RECORD

American Immigration Lawyers Association (AILA), Charles H. Kuck, 
  President, Washington, DC, statement...........................    28
American-Arab Anti-Discrimination Committee (ADC), Eden Prairie, 
  Minnesota, statement...........................................    30
American Civil Liberties Union, Caroline Fredrickson, Director, 
  and Joanne Line, Legislative Counsel, Washington, DC, statement    31
American Council on International Personnel (ACIP), Rebecca K. 
  Peters, Director and Counsel for Legislative Affairs, 
  Washington, DC, statement......................................    35
Beck, Roy, Founder and Chief Executive Officer, NumberUSA 
  Education & Research Foundation, Arlington, Virginia, statement    37
Bond, Julian, Chairman, National Board of Directors, National 
  Association for the Advancement of Colored People (NAACP), 
  Washington, D.C., statement....................................    43
Bragar, Robert, Amsterdam, Netherlands, statement................    48
Calvillo, Angela, Clerk of the Board, San Francisco Board of 
  Supervisors, San Francisco, California, statement..............    49
Carey, Rea, Executive Director, National Gay and Lesbian Task 
  Force Action Fund, Washington, DC, statement...................    53
Checkoway, Robert, International Vice Chair, Democrats Abroad, 
  Washington, DC, statement......................................    55
Concerned Women for America's (CWA), Wendy Wright, President, 
  Washington, DC, statement......................................    56
CSI Consulting & Investigations, John N. Sampson, Aurora, 
  Colorado, statement............................................    57
Council for Global Equality, Mark Bromley, Chair, and Julie Dorf, 
  Senior Advisor, and Ambassador Michael Guest, Retired Senior 
  Advisor, Washington, DC, joint statement.......................    59
Chrisler, Jennifer, Executive Director, Boston, Massachusetts, 
  statement......................................................    61
Eagle Forum, Phyllis Schlafly, Alton, Illinois, statement........    63
Federation for American Immigration Reform (FAIR), Washington, 
  DC, statement..................................................    66
Focus on the Family, Tom Minnery, Senior Vice President, 
  Government and Public Policy, Colorado Springs, Colorado, 
  statement......................................................    78
Gays and Lesbians in Foreign Affairs Agencies (GLIFAA), 
  Washington, DC, statement......................................    80
Gay, Lesbian and Straight Education Network (GLSEN), Washington, 
  DC, statement..................................................    82
Kindler, Jeffrey B., Chairman and Chief Executive Officer, Pfizer 
  Inc., New York, New York, statement............................    84
Love exiles Foundation, Martha McDevitt-Pugh, Chair, Robert 
  Bragar, Board Member, Robert Checkoway, Board Member, and Lin 
  McDevitt-Pugh, Board Member, Amsterdam, Netherlands, statement.    87
Maxwell, Michael J., former Head, Security and Integrity, Bureau 
  of Citizenship and Immigration Services, Washington, DC, 
  statement......................................................    89
National Center for Lesbian Rights, Kate Kendell, ESQ., Executive 
  Director, San Francisco, California, statement.................    96
National Immigrant Justice Center, Mary Meg McCathy, Executive 
  Director, Chicago, Illinois, statement.........................    99
National Latina Institute for Reproductive Health, New York, New 
  York, statement................................................   100
Nugent, Christopher, Co-Chair, Committee on the Rights of 
  Immigrants, Section of Individual Rights and Responsibilities, 
  American Bar Association, Washington, D.C., statement..........   102
Perkins, Tony, President, Family Research Council, Washington, 
  DC, statement..................................................   107
People for the American Way, Marge Baker, Executive Vice 
  President for Policy and Program Planning, Washington, DC, 
  statement......................................................   110
Quinn, Christine C., Council Speaker, New York, New York, 
  statement......................................................   112
Sampson, John, retired, Department of Homeland Security, 
  washington, DC, statement......................................   115
Schulman, Yisroel, Esq., Presidet and Attorney-in-charge, New 
  York Legal, Assistance Group, New York, New York, statement....   117
Solmonese, Joe, President, Human Rights Campaign, Washington, DC, 
  statement......................................................   120
Stewart, Gordon, London, England, statement......................   126
Stonewall Young Democrats, Shawn Amsler, President, Los Angeles, 
  California, statement..........................................   128
Tan, Shirley, Pacifica, California, statement....................   129
Tiven, Rachel B., Esq., Executive Director, Immigration Equality, 
  New York, New York, statement..................................   132
Unitarian Universalist Association of Congregations, Adam G. 
  Gerhardstein, Director, Washington, DC, statement..............   142
Vaughan, Jessica M., Director, Policy Studies, Center for 
  Immigration Studies, Center for Immigration Studies, Franklin, 
  Massachusetts, statement.......................................   143

 
  THE UNITING AMERICAN FAMILIES ACT: ADDRESSING INEQUALITY IN FEDERAL 
                            IMMIGRATION LAW

                              ----------                              


                         TUESDAY, JUNE 3, 2009

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:08 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Schumer, Specter, and Sessions.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning. We have a number of things 
going on in the Judiciary Committee, so I apologize for the 
delay. But I am delighted to see Congressman Nadler and 
Congresswoman Speier here, and I apologize to them and the 
other witnesses that we have been delayed.
    You know, for too long, gay and lesbian American citizens 
whose partners are foreign nationals have been denied the 
ability to sponsor their loved ones for lawful permanent 
residency. Under current immigration law, many citizens have 
been forced to choose between their country and their loved 
ones. No American should face that kind of a choice. The 
preservation of family unity is at the core of our immigration 
legal system, and this American value has to apply to all 
families.
    During the past several years, Americans have increasingly 
come to reject the notion that their fellow Americans who are 
gay or lesbian should not have loving relationships. My own 
State of Vermont has been at the forefront of this. Federal 
policy should encourage--let me emphasize that--Federal policy 
should encourage rather than restrict our opportunity as 
Americans to sustain the relationships that fulfill our lives.
    Today, we will hear testimony on the Uniting American 
Families Act, a bill I introduced last Congress. Our bill will 
allow the committed partners of Americans the opportunity to 
immigrate. What we consider today with this legislation is an 
issue of fairness under Federal law. It is time for the United 
States to join 19 other nations, many of which are our closest 
allies, in providing our gay and lesbian citizens this benefit 
under our immigration laws.
    There is no place for discrimination in our Federal law. I 
note that traditional civil rights leaders like Congressman 
John Lewis and Julian Bond, the Chairman of the National 
Association for the Advancement of Colored People, have said 
unequivocally that the issue of gay rights is an issue of civil 
rights. To quote Chairman Bond: ``Gay and lesbian rights are 
not special rights in any way. It isn't `special' to be free 
from discrimination. It is an ordinary, universal entitlement 
of citizenship.''
    Some have expressed concern that if Federal immigration law 
were to recognize committed same-sex partnerships for purposes 
of immigration benefits, opportunities for fraud would 
increase. That has always been an issue, and I am confident 
that the U.S. Citizenship and Immigration Services will have no 
more difficulty discovering fraudulent arrangements between 
same-sex couples than heterosexual couples. They have to make 
that decision all the time. Our immigration agencies are well 
trained and highly experienced in this regard. I have little 
doubt that when this legislation is enacted, the immigration 
agency will safeguard against fraud and abuse in same-sex 
partnerships just as it does for heterosexual couples.
    The benefits this legislation seeks to provide are not 
contingent upon the definition of marriage. I believe that is 
an issue best left to the States. Former Vice President Cheney 
and I are often thought about because of our brief conversation 
a couple years ago on the floor of the Senate, which I will not 
put into the record.
    [Laughter.]
    Chairman Leahy. But this week, he said much the same thing 
I have about States being able to decide whether their law 
would recognize gay marriages.
    Again, in Vermont--if I might just digress for a moment and 
just tell you one story. When we were considering our civil 
union law in Vermont, the then-retired Senator, no longer 
alive, Senator Bob Stafford--and I think, Congressman, you 
remember Senator Stafford. A wonderful man, almost the 
stereotype of a New England Republican, very tall, straight, 
had been a Governor, had been a Congressman, a World War II 
hero. He came to a public hearing to talk about it, and he said 
that 57 years before then, he had met a young woman in Bellows 
Falls, Vermont, and they got married. He said, ``Everything I 
have ever done in life--Attorney General, Congressman, 
Governor, Senator, the times I was at war--I was able to do 
better because of her love and her support.'' And we were all 
wondering just where this was going. And he said, ``If we have 
two people who love each other, what difference does it make if 
they are the same sex or not? What difference does it make? If 
they love each other and support each other and make each other 
better, isn't that what we should want? ''
    There were several other people who were going to speak at 
the meeting. We all just stood up and said, ``Me, too. Go 
ahead.''
    You know, I know what a wonderful marriage the Staffords 
had. My wife and I have been married 47 years, trying to 
emulate the same.
    Now, just last month, President Obama and Secretary of 
State Clinton announced a new policy to provide domestic 
benefits to the men and women in our foreign service who are in 
same-sex domestic partnerships. President Obama and Secretary 
Clinton acknowledged what many American corporations already 
recognize, many of our largest corporations: The happiness and 
the stability of their employees in their personal lives is 
essential to success and productivity in their professional 
lives. And I applaud that.
    There is more work to be done. You know, it was not long 
ago that homosexuality barred an immigrant from entry into the 
United States. It is time to take that constraint off the 
committed same-sex partners of American citizens.
    I hope we are going to be returning to the question of 
comprehensive immigration reform. This is just one of the 
issues to be faced. Senator Schumer, who chairs our Immigration 
Subcommittee, has begun a series of hearings to prepare us for 
that, and I hope today's hearing will help. And, again, I 
welcome our new Ranking Member--not that new anymore. He has 
had a baptism of fire in the last few days. Senator Sessions.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman, and thank you 
for your courtesy on so many things, actually. You have been 
very helpful to me as I have tried to get my feet on the 
ground, and you have the experience on this Committee that is 
almost unprecedented, and I value your counsel and your 
courtesy very much.
    Mr. Chairman, I have looked at this legislation and have 
given it some review, and I have a number of concerns that 
would prevent me from supporting it. I think it does amount to 
a redefinition of marriage, contrary to what the Congress has 
explicitly stated. I do think, as you made reference, that 
establishing a lawful system of immigration for this country 
that respects and affirms our great heritage of the rule of law 
is important, and we must do it in a way that actually works. I 
believe this bill would make that more difficult.
    It seems that we would be creating a special preference and 
benefit for a category of immigrants based on a relationship 
that is not recognized by Federal law and overwhelmingly by 
most States. By creating a new and a legally tenuous, I 
suggest, definition of ``permanent partnership,'' we would be 
expanding the avenue for fraud and abuse for an unlimited 
number, perhaps, of people who may not even fit into the idea 
that the drafters have in mind with this legislation.
    I think for the first time ever, this legislation would 
create a Federal recognition of same-sex marriage which is not 
the current law. It would reverse current law. In 1996, 
Congress overwhelmingly passed the Defense of Marriage Act 85-
14. President Clinton signed it into law. It included a 
provision which expressly defined the word ``marriage'' as 
``only a legal union between one man and one woman as husband 
and wife.''
    So 29 States, as this debate has continued, have now 
enacted constitutional amendments that bar the formal 
recognition of gay marriage, and others have passed statutory 
bars to that effect.
    I would just say that, of course, individuals can carry 
themselves out publicly as a partnership as they desire. The 
question is: Do you get the same legal benefits that you might 
get in certain circumstances, such as the immigration benefit 
to bring your spouse to the country? I think that would be a 
policy that we should not adopt and would be against the 
settled will of the American people and the settled will to 
date of the U.S. Congress.
    There is a real potential for fraud with this legislation. 
I remember many years ago prosecuting cases as a United States 
Attorney involving marriage fraud. Recently, Senator Specter 
and I--well, 2 or 3 years ago now--took a trip to South 
America, and the consulate official there who approves 
immigration visas talked about how difficult marriage fraud 
cases are, how many they see, and it is a major loophole, he 
told us, in our system. Many cases of spousal immigration fraud 
arise when a citizen or a legal permanent resident brings their 
spouse to the United States, and so the permanent partner 
standard that would not be a recognized union in the country 
perhaps from which that person comes now could provide an 
additional avenue for abuse of the marriage preference for 
immigration into our country.
    So, Mr. Chairman, there are a number of things that concern 
me about the legislation. I think it is not something that 
Congress would be inclined to pass. But I value the hearing. I 
look forward to the testimony of our Congressman and 
Congresswoman and discussion of the issue as we go forward.
    Thank you very much.
    Chairman Leahy. Thank you. As you may gather, there is 
somewhat of a split on the panel. But I am glad we are having 
the hearing, and, again, I appreciate Senator Sessions' being 
willing to be here for the hearing, too.
    Representative Jerrold Nadler is Chairman of the House 
Judiciary Committee's Subcommittee on the Constitution, Civil 
Rights, and Civil Liberties. He represent New York's 8th 
Congressional District, first elected to the House of 
Representatives in 1992, after serving for 16 years in the New 
York State Assembly. He is the lead cosponsor of H.R. 1024, the 
House version of this.
    Congressman, it is always good to see you.

STATEMENT OF HON. JERROLD NADLER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Representative Nadler. Good to see you, Senator.
    Good morning, Chairman Leahy, Ranking Member Sessions. 
Thank you very much for holding this important hearing on the 
Uniting American Families Act and for inviting me to testify.
    As the sponsor of this legislation in the House, I 
appreciate the opportunity to testify today and to offer my 
thanks to Chairman Leahy for sponsoring the Uniting American 
Families Act in the Senate and for being such a tremendous 
champion of the issue. I know the Committee is on a tight time 
schedule so I will be brief.
    I have always found that among the worst kinds of injustice 
are those in which the law acts, perhaps unintentionally, in a 
gratuitously cruel manner; that is to say, it harms individuals 
for no purpose at all. Sometimes the law must harm people 
unavoidably. But to harm people for no purpose at all is out of 
bounds. It is this kind of injustice, this kind of gratuitous 
cruelty that the Uniting American Families Act would correct.
    I first introduced the Uniting American Families Act 9 
years ago after hearing from constituents and others about the 
pain that immigration laws are inflicting on their lives. Just 
because they were gay or lesbian, these Americans were not 
allowed to sponsor their partners for immigration purposes. 
What this unequal policy means is that tens of thousands of gay 
and lesbian Americans face a terrible choice between leaving 
the country to be with the person they love or remaining here 
in the United States and separating from their partner. Or 
given the law in the other country, it is entirely possible 
that the two partners may find it impossible to be together in 
either country. This runs directly counter not only to the goal 
of family unity, which is supposed to be the bedrock of 
American immigration policy; it runs directly counter to any 
consideration of plain humanity and to any consideration of not 
being purposelessly and gratuitously cruel to the people 
involved.
    We can right this wrong by passing the Uniting American 
Families Act. It is very simple. It would give same-sex couples 
the same immigration benefits as opposite-sex couples. And I 
must differ here with Senator Sessions. This is not part 
properly of the debate over same-sex couples marriage. That is 
a separate debate. I happen to support same-sex marriage, but 
it is a completely separate debate. This simply says that for 
immigration purposes we are not going to single out these 
couples and say, ``You cannot sponsor your partner. You cannot 
get married because you are the same sex, and you cannot 
sponsor your partner. And, therefore, you must remain separate 
and apart, perhaps a continent apart.''
    That is cruel. This legislation is not intended to legalize 
gay marriage. It is not intended to deal with that issue at 
all. It is intended to alleviate a gratuitous and purposeless 
cruelty in the law for about 36,000 people.
    Same-sex couples would have to prove the bona fide nature 
of their relationships just as opposite-sex couples do, or face 
the same harsh penalties for fraud. So the argument that this 
would increase the odds of fraud--the odds of fraud would be 
exactly the same as under the current law. It would not be 
decreased. That is a question of enforcement. It would not be 
increased.
    Our unequal immigration laws presently wreak havoc on the 
lives of thousands of bi-national couples and families across 
the country. It does not have to be that say, and in a just 
country, it should not be that way. We can end this injustice 
and stop this gratuitous cruelty by passing the Uniting 
American Families Act.
    When Congress considers, I hope later this session, a 
comprehensive immigration bill, this bill certainly should be 
made part of it. I will do my best to ensure that this is the 
case on the House side.
    Thank you again, Senator Leahy, for your leadership on this 
basic issue of fairness, for holding this hearing, and for 
providing me with the opportunity to testify.
    [The prepared statement of Mr. Nadler appears as a 
submission for the record.]
    Chairman Leahy. Thank you, Congressman, and I know you have 
got a million things going on over in the other body, and I 
appreciate your being here.
    Representative Nadler. Thank you.
    Chairman Leahy. Congresswoman Speier, Jackie Speier, 
represents California's 12th Congressional District. 
Representative Speier worked with Senator Feinstein to 
introduce a private bill in the Senate to enable Ms. Shirley 
Tan, one of today's witnesses, to obtain lawful permanent 
residency. And I understand, Congresswoman, you are going to be 
introducing Ms. Tan. Is that correct?
    Representative Speier. That is correct.
    Chairman Leahy. Thank you. Please go ahead.

 STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Representative Speier. Thank you, Mr. Chairman and Ranking 
Member Sessions. Thank you for holding this hearing on the 
Uniting American Families Act, which seeks to fix a fundamental 
injustice that rips children from the arms of their parents 
and, sadly, suggests that our constitutional guarantee of equal 
protection under the law is often quite unequal. I commend 
Congressman Nadler and Chairman Leahy for introducing twin 
bills on this issue.
    I thank you also for allowing me to introduce my 
constituent, Shirley Tan from the scenic and hard-working city 
of Pacifica, California, where, when God and sunshine conspire 
to lift the fog, you can see the beautiful Pacific Ocean that 
Shirley and so many of my constituents crossed from her native 
Philippines to enjoy.
    I only recently met Shirley and her family. That is because 
they are not political people. They are a family. They go to 
church. They have involvement in their local school. Shirley 
and her partner of 23 years, Jay Mercado, are not activists 
trying to change the world by marching and shouting from the 
rooftops. They are parents, like most of us, who hope to change 
the world by quietly raising confident, studious, and generous 
children.
    I did a home visit a couple of months ago, spent an hour 
and a half with the family, flipped through family albums, 23 
years of family albums, talked to their sons, who were 
cheerful, and fearing of losing their Mom. They are just an 
all-American family.
    Shirley and Jay both sing in their church choir, and their 
twin boys got straight A's and are active at school, both 
playing on the junior high school basketball teams. This family 
would be no different than the thousands of other families in 
my district with one or more foreign-born parents were it not 
for the fact that, through no fault of their own, they are 
victims of an anomaly in U.S. law that tears families apart 
based solely on the gender of the person that a citizen or 
legal resident happens to fall in love with.
    I want to thank my good friend Senator Dianne Feinstein, 
who introduced a private bill for Shirley. She has a 2-year 
reprieve. That is not good enough in our America that offers 
equal protection under the laws.
    Shirley Tan and her family are exemplary members of our 
community who, after being thrust these few months into the 
public spotlight, have handled themselves with grace and 
dignity.
    Thank you, Mr. Chairman, for allowing me now to introduce 
Ms. Tan to tell her compelling story.
    Chairman Leahy. Thank you, Congresswoman, and thank you, 
Congressman Nadler. I am sure we will be talking a lot as the 
summer goes on.
    Chairman Leahy. I would ask you to please come and sit 
down, Ms. Tan, and Gordon Stewart, and my friend Julian Bond, 
who is here; Christopher Nugent, Roy Beck, and Jessica Vaughan. 
I do not know if those things have the names on the back of 
them or not.
    Congresswoman, did you want to say anything more about Ms. 
Tan? I think you covered it pretty well, especially the--I am 
thinking of those family photos, the albums and all. Thank you.
    Shirley Tan, as has already been said, is from Pacifica, 
California. I have been there a number of times. It is a 
beautiful area. She lives with her partner, Jay Mercado. She 
has been there for 23 years. Together they have 12- year-old 
twin sons, Joriene and Jashley. Are these your sons here? Okay. 
Hi, guys. In the family archives someday, they will go back and 
they will see that you were at this hearing. That is why I 
wanted to make sure your names were mentioned.
    Ms. Tan came to the United States--and I am sorry I have to 
bring this up--from the Philippines after she had been brutally 
attacked by an assailant who also murdered her mother and 
sister. She is the primary caretaker for her elderly mother-in-
law. She is a volunteer in her children's school and a 
eucharistic minister at her local Catholic Church. Ms. Tan, 
please go ahead.

         STATEMENT OF SHIRLEY TAN, PACIFICA, CALIFORNIA

    Ms. Tan. Chairman Leahy, members of the Committee, thank 
you for your invitation to appear before you this morning. My 
name is Shirley Tan, and I am a 43-year-old mother and 
housewife from Pacifica, California. I am grateful for the 
opportunity to share my story with you and grateful, too, for 
Chairman Leahy's leadership on an issue that is so critically 
important to my family and the tens of thousands of others 
across the country.
    I am honored to be here today with my 12-year-old twins, 
Jashley and Joriene, and my partner of 23 years, Jay Mercado. I 
met Jay when, as a graduation present, my father brought me to 
the United States. Our relationship continued even after I 
returned to the Philippines following the expiration of my 6-
month visa.
    When I returned to the Philippines, I learned that the man 
who had, 10 years before, brutally murdered my mother and 
sister, and almost killed me as well, was released from prison. 
Without anywhere else to go, I decided to go to Jay where I 
would be safe.
    In 1995, I hired an attorney to apply for asylum and 
legalize my stay in the United States. When my application was 
denied, my attorney appealed the decision.
    I did not know it, but my appeal had also been denied. All 
the while, Jay and I went about building our life together. I 
gave birth to Jashley and Joriene, the biggest joy in our lives 
and became a full-time Mom.
    Our family has always been like every American family, and 
I am so proud of Jay and the twins. The boys attended Catholic 
school through sixth grade and are now in Cabrillo School. I am 
a Eucharistic minister at Good Shepherd Church, where Jay and I 
both sing in the Sunday Mass choir.
    We have never felt discriminated against in our community. 
Our friends, mostly heterosexual couples, call us the ``model 
family'' and even said we are their role models. We try to 
mirror the best family values, and we attribute the fact that 
our children are so well adjusted to the love, security, and 
consistency that we, as parents, have been able to provide. 
Jashley and Joriene's classmates at school know they have two 
Moms, and it has never been an issue.
    Our lives, I can say without any doubt, were almost perfect 
until the morning of January 28, 2009. That morning, at 6:30 
a.m., Immigration and Customs Enforcement agents showed up at 
my door.
    The agents showed me a piece of paper, which----
    Chairman Leahy. Ms. Tan, if we can hold a moment. I think 
your son, understandably, is upset. If he would like to go in 
this back room--if you would like to go in the back room, 
please--if you would like to go with your mother in the back 
room, you can. Please. It is all right.
    I have a grandson the same age.
    All right. I just wanted you to know, young man, your 
mother is a very brave woman. You should be very proud of her.
    Go ahead. Go ahead, Ms. Tan.
    Ms. Tan. The agent showed me a piece of paper which was a 
2002 deportation letter, which I informed them I had never 
seen. Before I knew it, I was handcuffed and taken away, like a 
criminal, as Jay's frail mother watched in hysterics. I was put 
into a van with two men in yellow jumpsuits and chains and 
searched like a criminal, in a way I have only seen on 
television and in the movies.
    All the while my family was first and foremost the center 
of everything on my mind.
    How would Jay work and take care of the kids if I was not 
there?
    Who would continue to take care of Jay's ailing mother, the 
mother I had come to love, if I was not there?
    Who would be there for my family if I was not there?
    In an instant, my family, my American family, was being 
ripped away from me.
    And when I did return home, I had an ankle monitoring 
bracelet. I went to great lengths to hide it from my children.
    I have a partner who is a U.S. citizen, and two beautiful 
children who are also U.S. citizens, but none of them can 
petition for me to remain in the United States with them.
    Passage of the Uniting American Families Act, UAFA, will 
not only benefit me, but the thousands of people who are also 
in the same situation as I am.
    After 23 years building our life together, Jay and I know 
that our family is still at great risk of separation. We have a 
home together. Jay has a great job. We have a mortgage, a 
pension, friends and a community. We have everything together, 
and it would be impossible to re-establish elsewhere. We have 
followed the law, respected the judicial system, and simply 
want to keep our family together.
    For my children, and couples and families like ours, it is 
critically important that we end discrimination in U.S. 
immigration law.
    Chairman Leahy and members of the Committee, it is a great 
privilege to be here with you today. I was honored to receive 
your invitation.
    I humbly ask for your support of the Uniting American 
Families Act which would allow me to remain with my family and 
to strive for citizenship in this wonderful country that has 
been so good to me and my partner and such a blessed home to 
our children.
    Thank you.
    [The prepared statement of Ms. Tan appears as a submission 
for the record.]
    Chairman Leahy. Thank you, Ms. Tan.
    Our next witness is Gordon Stewart. He is a director and 
team leader with Pfizer Pharmaceutical. He has been with the 
company for 14 years, I believe. Originally from my home State 
of Vermont, Mr. Stewart now lives in London--I will mention as 
a result of our current immigration law and the inability of 
his partner of 9 years to obtain a U.S. visa. Mr. Stewart was 
forced to sell his home in the United States and relocate to 
London to keep his family intact. Is that correct?
    Mr. Stewart. Yes.
    Chairman Leahy. Please go ahead, and make sure your 
microphone is on. Please go ahead.

          STATEMENT OF GORDON STEWART, LONDON, ENGLAND

    Mr. Stewart. Chairman Leahy and Ranking Member Sessions, I 
am grateful for the opportunity to appear before you today. I 
am an American citizen living abroad simply due to the fact 
that our country's immigration laws have forced me to leave the 
United States in order to be with my partner, Renato, the 
person I love.
    I am here today because, like so many other Americans in 
similar situations, I believe it is imperative that we fix our 
broken immigration system, and specifically that it is long 
past time we treat lesbian and gay Americans and our families 
equally under the law. I traveled to be with you today from 
London where I work for Pfizer.
    I am fortunate to have worked for Pfizer more than 14 
years. Pfizer is a company that recognizes domestic 
partnership. Unfortunately, the U.S. Government does not 
recognize Renato, my partner of more than 9 years. Renato lived 
with me in the U.S. as a full-time student, studying English 
and pre-Law. He was corporate counsel for a multinational in 
Sao Paolo before coming to New York. In June 2003, while 
enrolled as a student, he returned to Brazil for what we 
thought would be a routine second renewal of his student visa. 
The renewal was rejected, and he has never been able to return 
to our home in the U.S. For weeks, I left his things exactly as 
they were the day he left, hoping that soon he would be able to 
come home.
    Renato wanted to live and study in the United States. He 
was a volunteer in our community. Yet, because the immigration 
laws did not recognize him as my family member, nothing I could 
do would bring him back to our home.
    So to be with Renato, I commuted to Brazil from New York 
every other weekend for more than a year and a half. This 
commuting took a huge toll on me emotionally, physically, and 
financially. Eventually, I was fortunate to find a position 
with Pfizer in the United Kingdom. The U.K. Government has 
recognized us as dependent partners, not a married couple, and 
we both have the right to live and work in the U.K. While we 
are grateful for this solution, it means separation from our 
family and friends and puts significant limitations on our 
career.
    The United States' discriminatory immigration laws have 
also affected my extended family of five siblings and nine 
nieces and nephews, and I am happy that my nephew from Vermont 
is with us today in the audience. If I want to be with my 
family----
    Chairman Leahy. Do you want to mention him just so that it 
can be part of the record?
    Mr. Stewart. Yes. His name is Chester Martin, and he is 
seated here.
    Chairman Leahy. Thank you.
    Mr. Stewart. Thank you.
    If I want to be with my family for important family 
occasions, I have to travel alone and leave Renato in London. 
In August, I will attend my niece's wedding in California. It 
will be a big family reunion, but my partner will not be able 
to join us. Renato cannot even get a tourist visa to the U.S. 
Imagine what that means.
    Recently, when my sister was diagnosed with cancer, Renato 
could not travel with me to visit her, and I could not spend as 
much time with her as I wanted because I live and work in 
London. That is the reality of our life together.
    Last year, I reluctantly and very sadly sold our family 
farm in Goshen, Vermont, because I cannot travel there with 
Renato. Our family had the farm from when I was 6 years old, 
and our parents both died and are buried on the property. 
Imagine what it is like to own a property that you cannot visit 
with your partner. It is impossible to maintain a 19th-century 
farmhouse from the other side of the Atlantic. That is the 
reality of American immigration law for couples like us.
    I am deeply disappointed that my country has treated Renato 
this way, and I am furious that we cannot live together in the 
U.S. Despite the fact that I am a citizen, a tax-paying, law-
abiding, and voting citizen, I feel discrimination from my 
Government.
    The U.K. has allowed both Renato and me to move there based 
on my temporary transfer from Pfizer. The U.K. recognizes 
permanent partners for immigration purposes as do 18 other 
countries. The U.S. should do the same.
    The decision to move to the U.K. was the best decision I 
could have made at that time. But I would like to be able to 
come home to my country, the country that I love. I should have 
the right to come with my partner to visit or to live, but we 
cannot. That is the reality of U.S. immigration law.
    Thousands of other lesbian and gay families are separated 
like we are. Unlike us, however, they have not had the support 
of a wonderful company like Pfizer to help find a solution to 
this impossible situation. The Uniting American Families Act 
needs to be passed now. I hope today's hearing will be a step 
in that direction.
    I would like to extend my sincere thanks to Senator Leahy 
for the strong stand he has taken on supporting families like 
mine. Let me also thank the Committee for taking the time to 
listen to my story. I am the voice of many wonderful Americans 
who have been forced to make the difficult choice between 
family and partner and country and partner.
    Allow me to add that my company, Pfizer, has earned, the 
top rating of 100 percent for five consecutive years in the 
Corporate Equality Index, an annual ranking published by the 
Human Rights Campaign Foundation that evaluates businesses on 
their treatment of LGBT employees, investors, and customers. 
Pfizer Chairman and CEO Jeff Kindler has said Pfizer supports 
its LGBT colleagues because ``doing better in recruitment and 
retention, in understanding diverse markets, and in making 
Pfizer a better place to work does ultimately drive up our 
value.'' However, he said we mainly ``support our LGBT 
colleagues because it is the right thing to do.''
    America should also support its LGBT citizens and families 
because it is indeed the right thing to do.
    Again, thank you, Chairman Leahy.
    [The prepared statement of Mr. Stewart appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you very much. I know the area 
where your farm is in Goshen, one of the prettiest parts of a 
very pretty State.
    I would also note for the record, we have talked several 
times about other countries that have already done what my 
legislation would propose doing. The countries are Canada, 
Australia, the United Kingdom, Israel, Brazil, Belgium, 
Denmark, Finland, France, Germany, Iceland, the Netherlands, 
New Zealand, Norway, South Africa, and Sweden.
    Our next witness is Julian----
    Senator Sessions. Mr. Chairman, I would note, I think in 
almost every one of those countries they have far more controls 
than this legislation would propose. But we can talk about that 
later.
    Thank you.
    Chairman Leahy. Yes. Julian Bond, our next witness, has 
been Chairman of the National Board of Directors of the NAACP 
since 1998. He was first elected to public office in 1965. He 
served four terms in the Georgia House of Representatives, 
which was a cataclysmic change--I might add parenthetically, I 
think Mr. Bond knows even more how cataclysmic it was--for 
Georgia and six terms in the State Senate, which was ultimately 
very much to the value of his State.
    In addition to his role as Chairman of the NAACP, he is a 
member of the board for People for the American Way, the 
Southern Poverty Law Center, the Council for a Livable World, 
serves on the Advisory Board of the Harvard Business School 
Initiative on Social Enterprise, among others. He holds 25 
honorary degrees, is a distinguished professor at American 
University, a professor of history at the University of 
Virginia, and a graduate of Morehouse College.
    Mr. Bond, I am delighted you are here. Please go ahead.

     STATEMENT OF JULIAN BOND, CHAIRMAN, NATIONAL BOARD OF 
DIRECTORS, NATIONAL ASSOCIATION FOR THE ADVANCEMENT OF COLORED 
                PEOPLE (NAACP), WASHINGTON, D.C.

    Mr. Bond. Thank you, sir. I would like to begin by thanking 
Chairman Leahy and Ranking Member Sessions for holding this 
hearing and for your strong and steadfast support of families 
of all types.
    The preservation and strengthening of the family unit has 
long been a rallying point for the NAACP, and I am happy to say 
my middle son, Michael, joins me here.
    Chairman Leahy. Now you are in the family archives, too.
    Mr. Bond. Family sponsorship accounts for more than 85 
percent of legal immigration to the United States. But a 
backlog of visas--experienced in many immigration categories, 
but especially for family members--currently separates 
immigrants from spouses and their young children for over 5 
years and separates elderly parents, adult children, and 
siblings for as many as 23 years. The current family-based 
immigration system has not been updated in 20 years. There are 
currently 5.8 million people in the family immigration backlog 
waiting unconscionable periods of time to reunite with their 
loved ones.
    It is for this reason that the NAACP strongly supports 
legislation in the Senate that would fix our Nation's 
immigration laws to again make family reunification a highly 
functioning element of our national immigration policy. 
Specifically, the NAACP supports the Reuniting Families Act, 
Senate bill 1085, introduced by Senator Menendez of New Jersey, 
and the Uniting American Families Act, Senate 424, which has 
been introduced by the Chairman of this Committee, Mr. Leahy.
    In the House of Representatives, the NAACP supports 
legislation to be introduced tomorrow by Congressman Mike 
Honda, also to be called the ``Reuniting American Families 
Act,'' which incorporates both S. 1085 and S. 424. I would 
hasten to add that we support the provisions in the Uniting 
American Families Act because the NAACP strongly believes that 
the definition of ``family'' is not restrictive and can and 
should include non-traditional family units. We do not believe 
that immigration law, or any laws or policies for that matter, 
should discriminate against gay and lesbian families or family 
members.
    Too much of our national debate over immigration has 
focused on enforcement and undocumented workers. The NAACP 
feels strongly that genuine reform must include provisions to 
fix an antiquated system with the result being the 
reinvigoration of one of the most compelling goals of the 
American immigration laws: the reunification of American 
families.
    Given all the benefits socially, economically, and morally 
of ensuring that effective family reunification is an integral 
part of our Nation's policy, there can be no question that the 
NAACP supports an overhaul of current law to ensure that the 
family preferences policies are functioning well and without 
discrimination.
    The NAACP would also like to stress that the definition of 
``family'' should not be interpreted so stringently as to omit 
people who are in a loving, committed relationship but happen 
to be of the same gender.
    It was, in fact, the Immigration Act of 1965 that put 
family unification at the core of our Nation's policy, 
replacing the old ``Quota Acts'' of the 1920s. The 1965 Act 
made huge strides in eradicating the old, racist policies that 
put a premium on people from Northern and Western Europe and 
made it next to impossible for people of color to immigrate to 
the United States.
    We clearly need to update our immigration policies to more 
efficiently promote family unification, and in the spirit of 
promoting civil rights that was the guiding force behind the 
1965 law, we should include families of all different races and 
ethnicities, including families with gay and lesbian members. 
It is because we support the civil rights protections of all 
people and because we are opposed to discrimination based on 
any criteria that we support inclusion of the Uniting American 
Families Act in any comprehensive immigration reform. This 
legislation will ensure that gay and lesbian couples and 
families are treated just like other families who are bi-
national. The inclusion of the Uniting American Families Act in 
comprehensive reform would ensure the continuation of an 
expansion of civil rights to people who have historically been 
left out and mistreated by American immigration policies.
    In closing, let me reiterate the NAACP's strong belief in 
the benefits of strong, united families. As such, we support 
the inclusion of modifications to the existing family 
reunification policies in our Nation's immigration laws to 
facilitate more families being brought together faster and with 
less hassle.
    Again, I would like to thank the Chairman for holding this 
important hearing and for your support of all kinds of 
families. Thank you.
    [The prepared statement of Mr. Bond appears as a submission 
for the record.]
    Chairman Leahy. Thank you very much, Mr. Bond.
    Our next witness is Christopher Nugent, who is Co-Chair of 
the Committee on the Rights of Immigrants of the Section of 
Individual Rights and Responsibilities of the American Bar 
Association. He currently is senior pro bono counsel with the 
Community Services Team of Holland and Knight. He works there 
specifically on immigration and public policy-related cases. 
Mr. Nugent has over 20 years of experience in the field of 
immigration policy. He is the recipient of numerous awards for 
his work. He is a graduate of Sarah Lawrence University, holds 
a law degree from the City University of New York.
    Mr. Nugent, please go ahead, sir.

  STATEMENT OF CHRISTOPHER NUGENT, CO-CHAIR, COMMITTEE ON THE 
    RIGHTS OF IMMIGRANTS, SECTION OF INDIVIDUAL RIGHTS AND 
  RESPONSIBILITIES, AMERICAN BAR ASSOCIATION, WASHINGTON, D.C.

    Mr. Nugent. Thank you, Chairman Leahy, and thank you, 
Ranking Member Senator Sessions. It is a privilege and an honor 
for me to appear before you. I am appearing today at the 
request of Tommy Wells Jr., the President of the American Bar 
Association, who was unable to attend the hearing. On behalf of 
the American Bar Association and its over 400,000 members, I 
would like to thank you for this exceptional opportunity to 
express the ABA's strong support for the Uniting American 
Families Act, which we hope will be integrated into any 
comprehensive immigration reform legislation.
    As the national voice of the legal profession, the ABA has 
a strong interest in ensuring that our immigration laws are 
both fair and effective, as well as supporting efforts to 
combat legal discrimination on the basis of race, gender, 
ethnicity, religion, nationality, and sexual orientation.
    In the particular area of immigration, the ABA has adopted 
numerous policy recommendations concerning the administration 
of our system of legal immigration. Central among these 
recommendations is the core principle that the basis upon which 
foreign nationals should be able to seek permanent resident 
status should be both humane and equitable and should reflect 
the historic emphasis on both family reunification and the 
economic and cultural interests of the United States.
    The ABA has also adopted numerous policy recommendations 
that oppose discrimination based on sexual orientation. We 
recognize the importance of providing committed gay and lesbian 
couples and their families with basic legal protections to help 
those families stay together.
    Family unification is an express and central goal of 
immigration policy in the United States and has been for more 
than 50 years. Currently, however, this principle fails the 
families of U.S. citizens and permanent residents whose same-
sex partners are foreign nationals. U.S. policy allows foreign 
spouses and fiance(e)s to immigrate and live with their U.S. 
partners, but it discriminates against gay and lesbian U.S. 
citizens and permanent residents by prohibiting them from 
sponsoring their partners for permanent residence in the U.S. 
As a result, as we have heard today, thousands of lesbian and 
gay bi-national couples and their children are being kept 
apart, driven abroad into virtual exile, or forced to live in 
fear of being separated, detained, or deported.
    This policy damages not only those families, but the United 
States society generally. According to the 2000 U.S. Census, 
there are 35,820 same-sex bi-national couples that live 
together in the United States. But due to current law and 
policy, they are prevented from immigrating to the United 
States, and many bi-national couples are forced to leave this 
country, depriving our Nation of the economic, cultural, 
social, and other contributions that these individuals could 
have made here.
    Gay and lesbian partners are ineligible to access 
immigration opportunities, regardless of the depth of their 
love and the permanency of their commitment to one another.
    The Uniting American Families Act would not repeal or 
affect the Defense of Marriage Act in any material way. Rather, 
the Act simply seeks to provide a viable mechanism by which 
permanent partners of gay and lesbian U.S. citizens and 
permanent residents have access to valid immigration status on 
an equivalent basis to married straight couples.
    Moreover, gay and lesbian couples would be subject to 
exactly the same rigorous documentation criteria that are 
imposed upon heterosexual spouses, including productions of 
documents like joint leases, mortgages, joint bank accounts, 
family photos, and the like. The petitioning American partner 
also would be required to sign a bind Affidavit of Support, 
which is a contract that would obligate him or her to 
financially support the beneficiary for 10 years in the United 
States.
    In addition, the current penalties, which are 5 years 
imprisonment or a $250,000 fine--for marriage fraud under the 
Immigration Nationality Act and the U.S. Code would apply with 
equal force and vigor to gay and lesbian couples. Accordingly, 
for these reasons, the Act would not increase the opportunity 
for marriage fraud.
    In maintaining the current immigration restrictions that 
discriminate against same-sex couples, the United States' 
policy is in direct contradiction with many of our closest 
allies, including the United Kingdom, Australia, and Israel, 
which facilitate and embrace immigration benefits for same-sex 
partners.
    In conclusion, central to this Nation's long history of 
immigration law and policy is to ensure that Americans and 
their loved ones are able to stay together in the United 
States. The current failure to recognize gay and lesbian 
permanent partnerships for immigration purposes is gratuitously 
cruel and unnecessary. Critical protections, as provided in the 
Uniting American Families Act, should be afforded and enacted 
to help gay and lesbian partners maintain their commitment to 
one another on an equal basis with different-sex spouses.
    I thank you for your consideration of my testimony, and I 
look forward to your questions. Thank you, Chairman Leahy.
    [The prepared statement of Mr. Nugent appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Mr. Nugent, and thank 
you for the emphasis on the kind of scrutiny that would be 
given to anybody making this kind of an application. As I 
understand, it is the same scrutiny as somebody who is a 
heterosexual couple, married couple, that would face the same 
kind of scrutiny. Is that correct?
    Mr. Nugent. Exactly. It would be the same exacting scrutiny 
and very vigorous documentation requirements and the threat of 
civil and criminal penalties. And as your bill, Chairman Leahy, 
states, it states that part of the bill is to penalize 
immigration fraud in connection with permanent partnerships. So 
that is integrated and central to your bill.
    Chairman Leahy. Thank you very much.
    Roy Beck is the founder and CEO of NumbersUSA, a grassroots 
organization dedicated to immigration reduction. Prior to 
joining the organization, Mr. Beck worked as a journalist for 
over 30 years. He is the recipient of numerous awards for 
reporting on religion and politics and is a graduate of the 
University of Missouri School of Journalism.
    Mr. Beck, glad to have you here, sir.

  STATEMENT OF ROY BECK, FOUNDER AND CHIEF EXECUTIVE OFFICER, 
NUMBERSUSA EDUCATION & RESEARCH FOUNDATION, ARLINGTON, VIRGINIA

    Mr. Beck. Thank you very much. I thank the Committee for 
the opportunity for NumbersUSA to testify about S. 424.
    The key issue for us is that S. 424 creates a new, 
unlimited category of immigration, but it does not include any 
offsets of reducing green cards in other categories.
    NumbersUSA was founded as a nonprofit, nonpartisan 
organization in 1996 to carry out the immigration 
recommendations of two Clinton-era national commissions. We now 
have 900,000 on-line activist members who support that mission. 
We believe that all immigration bills should be reviewed in 
light of the principles of those two commissions.
    First, President Clinton's Council on Sustainable 
Development recommended that annual green card numbers be cut 
low enough to allow for U.S. population stabilization. 
Environmental sustainability in this country was seen by the 
Commission as impossible if Congress continued to force massive 
U.S. population growth through immigration.
    The second was the bipartisan U.S. Commission on 
Immigration Reform that was chaired by the late Barbara Jordan. 
It recommended deep cuts in immigration to remove the economic 
injustice that current immigration causes and imposes on the 
most vulnerable members of our community. NumbersUSA examines 
every immigration proposal on the basis of how it would advance 
or impede the numerical recommendations of the two Clinton-era 
commissions. These commissions recognized that immigration 
policy has been assembled piecemeal without thought to how the 
total number of green cards affects the overall national 
community.
    These Commissions recognized that our immigration policy 
has been assembled piecemeal, without thought about how the 
total number of green cards affects the overall national 
community. Thus, a bill like S. 424 will tend to be examined 
entirely outside its environmental consequences, even though we 
are in a time of grave environmental concerns. It will tend to 
be examined outside its economic impact despite our 9-percent 
unemployment rate. But nearly every adult who is permanently 
added to the U.S. population through immigration legislation 
would be a potential competitor to unemployed and underemployed 
American workers. Every new immigrant increases the total U.S. 
carbon footprint and ecological footprint.
    Every piece of our complex policy caters to a particular 
special interest. Now, special does not mean illegitimate. It 
just means it is special. It is not the national interest 
overall. But the combined effect of all of these pieces on our 
Nation's immigration policy has a profound consequence on the 
entire national community in terms of the public infrastructure 
deficit, economic disparities, and stewardship over our natural 
resources.
    I hope the Judiciary Committee will consider all those 
implications every time it looks at immigration legislation in 
the Congress. I noted in my written testimony that in many ways 
immigration ought to come up before the Environment, Energy, 
Health Services because it is the primary driver of population 
growth in this country, which has profound effects on all of 
those committees' work.
    All of the long-term population growth in the United States 
since 1972 has been due to Federal immigration policies.
    In 1972, Americans chose to reduce the U.S. fertility rate 
to below the replacement level of 2.1. It has been just below 
that ever since. Yet the 1990s saw the biggest population boom 
in our history--larger even than the 1950s baby boom. This 
decade is very similar.
    There is only one reason for this gigantic population boom 
that defies all of the environmental hopes and dreams that were 
back in the 1960s and 1970s when I first began reporting on the 
environmental movement, and they are opposite the trends 
recommended by President Clinton's Sustainability Commission. 
That reason is that Congress has repeatedly overridden the 
American people's choice of a stabilizing future and instead 
forced massive population growth through increases in green 
cards.
    I am not aware that Congress has ever stated that it wanted 
to increase the population. I am not aware that Congress has 
ever said that the American people prefer to have an extra 130 
million people the Census Bureau says that immigration will 
cause over the next 50 years or 40 years. But this is the 
result of making decisions on green cards piecemeal instead of 
looking at the overall consequences and the overall numbers.
    Until the first Earth Day in 1970, immigration averaged 
about 250,000 a year, and that was about what it was in the 
1950s and 1960s. But a succession of immigration decisions by 
Congress have raised the 250,000 green cards to a million-a-
year level by 1990, and it has been there ever since.
    In order to meet the Sustainability Commission's 
recommendations of moving toward a stabilized U.S. population, 
green card numbers would have to be cut back at least 75 
percent. Like nearly all sustainability issues, the setting of 
green card numbers is not primarily for those of us who are 
living in the next decade. They are for our children and 
grandchildren later this century, and they are for the 
generations to come that will be in this country.
    I want to just finish then by saying that, in a nutshell, 
our concern about S. 424 is that it represents another 
piecemeal congressional act that would increase the numbers of 
green cards each year with no regard for the resulting increase 
in population pressures.
    Without a reduction in immigration and population growth, 
it will be close to impossible to meet carbon goals, energy 
goals, infrastructure goals without a fundamental slashing of 
the American standard of living.
    If Congress would take a bill like S. 424 and create 
offsets at the same time, our organization does not have a 
position on how these green cards are passed out. But we do 
believe that the direction of green cards must be moving toward 
the quarter million level from the million level. Thus, a bill 
such as S. 424 that adds green cards should cut, we think, at 
least three green cards in other categories in order to move in 
the right direction. By adding green cards without reducing 
others, passing S. 424 would be irresponsible to the 
environment, to future generations, and to the most 
economically vulnerable members of our national community.
    Thank you.
    [The prepared statement of Mr. Beck appears as a submission 
for the record.]
    Chairman Leahy. Thank you very much, Mr. Beck.
    Incidentally, you talk about doing this in a comprehensive 
fashion. Did you support President Bush's comprehensive 
immigration plan?
    Mr. Beck. No. No, because it added lots of green cards.
    Chairman Leahy. Okay. I did support President Bush on that 
one.
    Mr. Beck. I know.
    Chairman Leahy. But it did not go anywhere.
    The next witness is Jessica Vaughan. She is the Director of 
Policy Studies at the Center for Immigration Studies. Ms. 
Vaughan is a former State Department consular officer, has 
extensive experience with visas, immigration benefits, and 
immigration law enforcement. She holds a bachelor's degree in 
international studies from Washington College, a master's 
degree in government from Georgetown University. Again, your 
whole statement will be placed in the record, but please go 
ahead, Ms. Vaughan.

  STATEMENT OF JESSICA M. VAUGHAN, DIRECTOR, POLICY STUDIES, 
    CENTER FOR IMMIGRATION STUDIES, FRANKLIN, MASSACHUSETTS

    Ms. Vaughan. Thank you all very much for the opportunity to 
be here today to discuss this bill. And just for the record, I 
am a former Vermonter, also, another one on the panel.
    Chairman Leahy. Whereabouts?
    Ms. Vaughan. Randolph.
    Chairman Leahy. Randolph. That is very pretty. Not that far 
from Montpelier, where I was born. Thank you.
    Ms. Vaughan. Thank you.
    First off, I want to say that I fully understand the goal 
of this legislation and the difficulties that some aspects of 
current law present, particularly for same-sex couples. But 
looking at this from the perspective of the administration of 
the law, and as somebody who has adjudicated some of these 
cases, and after discussing it with others who know the current 
process very well, I do see a number of problems with the bill.
    It is addressing the issue from the wrong direction, I 
believe, and as a result would create major new problems for 
officials who adjudicate immigration benefits applications and 
for the many individuals who are involved in those 
applications.
    Immigration law specifies exactly which types of 
relationships can qualify for visas, green cards, and other 
benefits, and in most cases they do refer to marriage or 
employment or another close family tie that can be established 
through official documentation that is verifiable. Right now, 
Federal law defines ``marriage'' as between a man and a woman, 
and immigration law and all other areas of Federal law are 
subject to that definition.
    If the goal is to give same-sex long-term partners equal 
access to immigration benefits, then the target really should 
be the Defense Of Marriage Act, not the Immigration and 
Nationality Act. If that law were changed, then this bill would 
not be necessary, and the change would apply to all other areas 
of Federal law, whether it is Social Security benefits or 
veterans benefits or what have you. I do not see a good reason 
to single out immigration law for that kind of a change.
    Then also from a practical standpoint, this bill is really 
just unworkable and would create havoc in our legal immigration 
system. First of all, there is the problem of official 
documentation. In most places, there is no mechanism to 
recognize or document permanent partnerships. And our whole 
immigration system is dependent on documents that can be 
verified.
    Eligibility is established by presenting documents that 
prove that the sponsor and applicant have a qualifying 
relationship, whether it is marriage, parent-child, employer-
employee, or sibling. And adjudicators review these documents 
to determine the eligibility of the people before them. For 
marriage-based applications, that is a marriage certificate. 
There is no investigation at that point, at the point of 
reviewing the petition. That may happen later if they are 
applying overseas, but usually it does not occur because about 
half of applications occur from within the United States. So 
usually there is no interview.
    It is already hard enough with all the different kinds of 
marriage certificates here and the prevalence of fraudulent 
documents in so many countries overseas to verify even the 
legitimate marriages. So what happens when consular officers 
and USCIS adjudicators have to try to evaluate a permanent 
partnership, which is a relationship that does not officially 
exist in most places? I found about 10 States, plus the 
District of Columbia, that allow same-sex marriage or civil 
unions or domestic partnerships, and those presumably would be 
able to provide some kind of documentation. But I only found 
about 21 foreign countries that have these kinds of 
partnerships, mostly in Europe----
    Chairman Leahy. How many?
    Ms. Vaughan. Twenty-one that I could find.
    Chairman Leahy. And Israel and South Africa.
    Ms. Vaughan. Israel recognizes other countries'. It does 
not have it itself, apparently, according to the sources I saw.
    Chairman Leahy. South Africa, too.
    Ms. Vaughan. South Africa, yes. Most of them are in Europe. 
But people from these countries only make up about 6 percent of 
legal immigration to the United States. So there is really a 
very small number of people who would be able to provide some 
kind of official documentation of their partnership. And I do 
think it is unreasonable to try to expect consular officers or 
USCIS adjudicators to try to do additional investigations to 
verify the authenticity of most of the rest of the other 
applications they would be getting under this legislation. It 
just is not feasible with the resources that they have today.
    So this bill, by creating a relationship that is difficult 
to document is going to introduce new opportunities for fraud 
in a program that is already a magnet for misrepresentation and 
abuse of the system.
    It is important to remember that this is going to create--
it is going to help a lot of people. It has the potential to 
help a lot of people. But it will also create thousands of new 
victims of marriage fraud as well. Marriage is by far the most 
common route for foreign nationals now. I counted that last 
year more than 400,000 people obtained green cards as a result 
of marriage to either a U.S. citizen or a permanent resident, 
or someone else who qualified for a green card. And that is 
about 40 percent of total legal immigration to the United 
States. So it is a lot of people who come in through this 
route. And while most of these marriages are legitimate, still 
marriage fraud is one of the most common ways for otherwise 
unqualified people--many of whom are illegal aliens--to obtain 
green cards.
    We published a report last year on marriage fraud and 
documented all the different types of it, whether it is mail-
order brides or cash for vows or exploitative relationships or 
what we call ``heart breakers,'' and all of these methods are 
sure to be used in the context of permanent partnerships.
    Chairman Leahy. Ms. Vaughan, we will put your full 
statement in the record. I want others to have time. I have to 
be at another thing. I know Senator Sessions will have 
questions and Senator Specter will. I will turn the gavel over 
to either Senator Specter or Senator Schumer if he comes. I do 
apologize. You make a very good point on the question of fraud, 
and as Mr. Nugent pointed out, we are trying to put the same 
law in, and we do not want to put extra work on overworked 
consular officers, but we all have to work hard. And we will 
put in the same fraud protections in there for this as we do 
for other married couples, because the point you make is a very 
good one. We should try to be able to root out fraud.
    [The prepared statement of Ms. Vaughan appears as a 
submission for the record.]
    Chairman Leahy. I am also going to put in the record 34 
statements in support of this from organizations across the 
country. Mr. Stewart, it includes Pfizer.
    Ms. Tan, thank you for coming today. I know part of this 
has been difficult for Jashley and Joriene, but you can be very 
proud of them.
    Ms. Tan. Thank you.
    Chairman Leahy. They look like very nice young men, and 
they should be proud of both their parents, and they should 
know that there are people who want to help them.
    I could not help but think that the family you have and the 
contribution to your community are things the Federal 
Government should protect. You work actively in your community, 
in your local Catholic Church, and other areas. And both your 
story and Mr. Stewart's story remind us that when we discuss 
this policy, there are real people involved. I just slipped Mr. 
Stewart a note saying that our family has had the same 
farmhouse for 50 years in Middlesex, and I know how--Middlesex 
is not that much different than Goshen.
    So we know that what you want to do is provide your family 
with a good education, provide them with their welfare. How 
about others in your community? How do they feel? Do you 
receive support within the community from people on this?
    Ms. Tan. Yes, I----
    Chairman Leahy. Press the button so your microphone will be 
on. If the little red light comes on, it is on. Go ahead.
    Ms. Tan. My whole community in Pacifica gave me their 
utmost support. The congregation, the Church of Good Shepherd, 
my parish priest, the pastor, he wrote a very nice letter to 
Senator Dianne Feinstein in support of my plight. And all of 
the community leaders, they are extending their sympathy, and 
my friends, the school community where my sons attend the 
Cabrillo School, they were extending their support and sympathy 
in this time of our life.
    Chairman Leahy. Thank you.
    Mr. Stewart, you are now working for Pfizer in England. You 
are paying your taxes in England. If this would work, you would 
be in the United States. You would be a taxpayer not only in my 
State but wherever Pfizer had you. Is that correct?
    Mr. Stewart. I am actually under the earned income 
exclusion. I also pay taxes in the U.S. as a U.S. citizen 
living abroad. So I, in fact, pay a heavy tax burden in the 
U.S. as well.
    Yes, if I were able to----
    Chairman Leahy. But your skills would be used here in the 
United States.
    Mr. Stewart. Yes. The headquarters of Pfizer are in New 
York, and the policy of Pfizer to send people abroad or move 
them around the global organization is so that they can add the 
most value to the company. And, obviously, at a certain point, 
my skills could be best used back in headquarters, I believe. 
And I believe that is why we have the support of our CEO and 
chairman.
    Chairman Leahy. Thank you.
    Mr. Bond, you--and I do not mean to embarrass you; it 
becomes almost a cliche. You are an icon in the civil rights 
movement and are recognized by all of us in that regard. I 
listened to your statement, the benefits of family unity and 
all. Would you say your statement could apply very well to Mr. 
Stewart and Ms. Tan.
    Mr. Bond. Absolutely. We think we are all united in wanting 
the same thing, and the arguments you have heard from personal 
stories are so compelling, it is hard to see how someone could 
turn away.
    Chairman Leahy. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you.
    You know, Mr. Nadler used the words ``gratuitous harm.'' I 
do not think that is the fair definition of where we are. It 
seems that the U.S. Government and most governments in the 
world have defined marriage as between a man and a woman. They 
give preferences in several different areas--joint tax returns 
or other advantages of being in that relationship that has been 
approved by the State. The State does not order that people 
cannot live together if they are same-sex couples and cannot 
share all kinds of responsibilities and activities together. It 
does not prohibit that. But it does not give that special 
status. And you think about maybe brothers and sisters live 
together a long time and are close, just roommates or partners 
or friends in business or other activities. They are not given 
preferences either. So at some point, the law has to draw 
lines. Our Congress has voted not long ago overwhelmingly that 
marriage should be defined as between a man and a woman. So 
that is kind of where we are, and most nations, I think, in the 
world would agree with that.
    I do note that this legislation has caused some concern 
among the pro-immigration forces. The U.S. Conference of 
Catholic Bishops, who support immigration and family 
unification issues in a pretty strong way, recently wrote that 
the reunification bill would ``erode the institution of 
marriage and family by according marriage-like immigration 
benefits to same-sex relationships, a position that is contrary 
to the very nature of marriage, which pre-dates the church and 
the State.''
    Also, Mr. Samuel Rodriguez, head of the National Hispanic 
Christian Leadership Conference, called it ``a slap in the face 
to those of us who fought for years for immigration reforms,'' 
adding that it would divide the very broad and strong coalition 
we have built on behalf of comprehensive reform.
    Well, I just say that to say that there are some 
differences here of a significant nature on this question.
    Mr. Nugent, just briefly, our research tells us that the 
countries that have this kind of immigration policy, at least 
in some form, all have more restrictions and requirements of 
proof than this bill would have. If you know that answer I 
would like your response. If not, perhaps the ABA would take a 
moment to check and see how well other countries have written 
their law to eliminate as much fraud as possible.
    Mr. Nugent. Yes, I would prefer that the ABA submit their 
response in writing, but I----
    Senator Sessions. You think the ABA had all that 
information when they passed the resolution adopting this?
    Mr. Nugent. To my knowledge, they surveyed all the other 
countries in terms of their requirements.
    Senator Sessions. Who votes for the ABA to make such a 
resolution? I am a member. I do not recall knowing that you 
were voting on it.
    Mr. Nugent. It was at last year's meeting.
    Senator Sessions. So just the delegates who showed up at 
the national meeting voted.
    Mr. Nugent. People can vote.
    Senator Sessions. Every delegate that showed--was it the 
entire ABA Conference or some committee?
    Mr. Nugent. No, it is through the House of Delegates, so 
the delegates votes.
    Senator Sessions. The delegates, not the ABA members and--
--
    Mr. Nugent. The delegates represent their constituents.
    Senator Sessions. How many is that?
    Mr. Nugent. I do not have the exact number of the ABA 
delegates. I think it is around 500.
    Senator Sessions. All right. Ms. Vaughan, with regard to 
this fraud issue, you have done a good bit of work on that, and 
I saw in your statement already that it is a big problem. As I 
indicated, when Senator Specter and I were in the Caribbean, we 
were talking to a consulate official, and I am not sure if 
Senator Specter was in that conference, but we got into a long 
discussion about this. He said this was the No. 1 fraud issue 
he faced. When they caught people flatly committing fraudulent 
documents, nobody prosecuted it. There was no ability to do 
anything about it. And it was just a constant abuse of the 
system. And he thought it was the most abused part of the 
system.
    How would you respond to that?
    Ms. Vaughan. Oh, I would agree, absolutely, that marriage 
fraud is the single most difficult problem in immigrant visas 
because there are so many applications that depend on marriage 
and documenting marriage. It is just ripe for it. There are so 
many different kinds of it. And so that is why it is critically 
important to be able to verify that the relationships are 
valid, and that is why we have a provision in the law that 
makes the green card conditional for 2 years. And then the 
couple has to come back to establish that they are still 
married.
    But even so, you know, the motivation----
    Senator Sessions. They have to come back and show--does 
this bill require that?
    Ms. Vaughan. My understanding is that it imposes the same 
standards on permanent partners as it does on marriage cases. 
But the problem is that--well, for one thing, marriage itself 
is an institution that brings with it legal entanglements, and 
we think that having--that the prospect of marriage is 
something that actually does deter some people who might be 
tempted to engage in marriage fraud for cash or for whatever 
reason, because they think it is kind of a benign crime, 
because of the legal entanglements--in other words, the spouse 
has access to your bank account, to your home, and so on, and 
you have to demonstrate the bona fides of the relationship. And 
so permanent partnerships have no such legal standing.
    Senator Sessions. In the United States in particular.
    Ms. Vaughan. In the United States in particular, and in 
many other countries in the world. So what is to stop--you 
know, I can imagine somebody who would be tempted to perpetrate 
this kind of fraud would just say, well, what do I have to lose 
by establishing a permanent partnership? Nothing. If we are to 
end the partnership, I lose nothing. I gain from, you know, 
however many thousands of dollars I make for establishing this 
fraudulent partnership, and there is no risk to me as an 
individual.
    Senator Sessions. How about the situation--isn't it true 
that if you have a spouse in Colombia, let us say, that spouse 
would go to the U.S. consulate on Colombia and would present a 
marriage certificate or some document that virtually every 
nation in the world provides for people who are actually in a 
heterosexual marriage relationship, right? But that kind of 
documentation is not available in most countries in the world 
where 94 percent of the people who used the marriage 
relationship to come to the United States as a preference, that 
would not be available. And so the consulate official has now 
got a real complex decisionmaking requirement before they can 
determine whether or not that is--what kind of relationship it 
is. Wouldn't that complicate their lives significantly?
    Ms. Vaughan. Oh, absolutely. It is hard enough with 
marriage certificates, but at least those you can verify by 
calling the country's Department of Vital Statistics or, you 
know, there are lots of other ways to discover that the 
government of that country has recognized this relationship.
    With permanent partnerships, they do not exist in most 
other countries of the world, so there would be no way that the 
adjudicating officer could have any confidence that this was a 
legitimate, officially recognized relationship. That is very 
problematic.
    Senator Sessions. There are other possible partnership 
relationships that could be implicated by this statute that 
would require even further and more complex analysis. I think 
the clarity of the preference, the benefit--the clarity of the 
benefit provided to a traditional marriage relationship 
provides some help in keeping integrity in the system and its 
being abused. To go beyond that I think would really open up 
the system to very grave consequences.
    Chairman Specter, I would just offer for the record a 
number of letters and comments. John Sampson, a 27-year veteran 
of immigration enforcement with INS and its successor, U.S. 
Customs Enforcement, ICE, the Family Research Council, Focus on 
the Family, Concerned Women of American Eagle Forum have 
submitted the letters that they would like to be made a part of 
the record. We would offer that.
    Senator Specter [presiding]. Without objection, they will 
be made a part of the record.
    [The information referred to appears as a submission for 
the record.]
    Senator Specter. Thank you, Senator Sessions.
    Senator Schumer.

 STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Schumer. Thank you, Mr. Chairman, and I apologize 
to you and to the witnesses for being here late. We had a 
discussion on the health care bill in the Finance Committee. 
That is coming up. I had to be there. I am just going to read 
an opening statement, because I am supportive of Senator 
Leahy's bill, and then you get on with other questions.
    Now, about a month ago, I chaired a hearing of the 
Immigration Subcommittee regarding the prospects for 
comprehensive immigration reform. It was a great hearing. As 
you know, Mr. Chairman, I am Chairman of the Immigration 
Subcommittee, and we are going to make a very strong attempt to 
try to get comprehensive immigration reform this year that I 
think can unite rather than divide people, because most 
Americans are both pro-legal immigration and anti-illegal 
immigration. And this bill will be very tough on each.
    At the hearing, Pastor Joel Hunter--he is one of America's 
most knowledgeable and influential conservative religious 
leaders. He is pastor of a huge church and has an amazing 
following and is a wonderful person. His testimony on 
immigration, you know, brought tears to the eyes of many 
people, and he reminded us that ``Our broken immigration system 
produces both broken and crooked people and tempts many to 
predatory practices''--something I know that all the witnesses, 
including Ms. Vaughan just talking about it, are worried about.
    Well, I urge my colleagues to read his testimony from last 
month, both in testimony as it applies to this bill, but as it 
applies to comprehensive immigration reform. And Pastor Hunter 
counseled us that, in order to fix this broken system, we must 
adopt an immigration system that deems each person is valuable, 
prioritizes the family, and provides compassion for those most 
in need. And that is why I am a sponsor of the Uniting American 
Families Act.
    For those who oppose this act, citing concerns of fraud, I 
counter with what our immigration officials themselves tell me. 
They say that what truly engenders fraud is the current broken 
system which lamentably places bi-national same-sex couples in 
the dilemma of either being torn apart from their loved ones or 
breaking the law. Ms. Tan has testified about that.
    For those who question the morality of permitting same-sex 
partners to obtain immigration benefits, I believe we should 
value the sanctity of preserving the family structure in 
whatever form it may take and in providing compassion for all 
Americans who yearn to live with their family.
    This Act incorporates the same principles that I believe 
should govern comprehensive immigration reform. It is tough on 
fraud and law breakers. It encourages people to abide by the 
law, requires people to prove they are really in a permanent 
partnership prior to receiving an immigration benefit. And, 
best of all, it fixes an aspect of our broken immigration 
system in order to discourage illegal immigration and encourage 
legal immigration.
    The time has come for us to help people like Ms. Tan and to 
make the promise of America real for this sympathetic segment 
to the American population who is adversely and irrationally 
affected by our current immigration law.
    The division I guess I would have with Jeff, my colleague 
Senator Sessions, is this: Do not let the perfect be the enemy 
of the good. No law is going to be perfect. But this law will 
encourage people to abide by the law rather than break it, 
because we know that love is one of the most strong forces that 
God has created, and people are going to figure out ways to 
keep that love intact, and sometimes it leads them to break the 
law, which is wrong. Why not have the law understand that and 
make a process that is more law-abiding rather than less?
    That is, I guess, what I would say, and I thank you, Mr. 
Chairman, for both calling on me and chairing the hearing. I 
thank all of the witnesses for their patience. And I thank 
Senator Leahy for introducing this bill.
    Senator Specter. Thank you, Senator Schumer.
    The trend nationally has been to recognize relationships 
between people of the same sex. There have been five States now 
which have given full marriage equality to members of the same 
sex. Other States have sanctioned civil unions. Still other 
States have sanctioned domestic partnerships. Some States have 
recognized same-sex marriage performed in other States. And 
some States have limited relationship recognition laws.
    Where there has been such a significant trend to giving at 
least recognition to civil unions, I believe it is entirely 
consistent to accord people that opportunity on immigration so 
that if you have a same-sex union to give equal standing as 
really a civil rights issue. Not necessary to get into the 
issue as to whether it would be constitutionally protected with 
the different status of an undocumented immigrant, for example. 
But I think Senator Leahy's legislation goes in the right 
direction, and I support it.
    The issue of same-sex marriage has changed very materially 
since the Defense of Marriage Act was passed in 1997. At that 
time, there was a very substantial vote, 86-14, and I was among 
the 86. Former President Clinton has made an interesting 
comment about same-sex marriage when asked about his own 
judgment on it. I think it is accurate to say that he remarked 
that his views were evolving, which may be a fair statement. As 
to what is happening nationally remains to be seen. But it is 
my hope that an issue like this will not prove to be so 
controversial that it derails our efforts to have comprehensive 
immigration reform.
    In 2006, this Committee passed out a comprehensive 
immigration reform bill. It passed the Senate. There was a bill 
which passed the House, and the House would not go to 
conference, really largely along political lines. Their bill 
was not comprehensive. It only dealt with the law and employer 
verification. The political calculation boomeranged, and the 
House went down to substantial defeat, and the Senate, by one 
vote, changed control.
    In 2007, the Committee did not take up the issue, and there 
was an ad hoc committee, and a bill was taken to the floor and 
was not successful. The issue of citizenship was a major 
concern, which I think led to the bill's defeat. But on the 
chronology, the comprehensive bill provided that the 
undocumented immigrants, estimated at 12 million--nobody knows 
for sure how many; it could be as many as 20 million--would 
come at the end of the line, which had a process of about 13 
years. So the citizenship was very far distant.
    I introduced a discussion bill in July of 2007 which made a 
couple of changes. One was on the family reunification issue 
which was considered in the ad hoc deliberations, and I think 
not wisely decided, without hearings and without the customary 
markup. And my bill provided that the fugitive status would be 
changed to try to bring people out of the so-called shadows to 
be in a position to be identified so that we could deport the 
criminal element. That is doable. You cannot deport 12 million 
people. Get the people out of the so-called shadows so they pay 
taxes and have standing in society.
    The hearing has run late, and I do not propose to ask very 
many questions. We do not often have a person of the stature of 
Mr. Julian Bond. Mr. Bond, would you care to give a reaction to 
a proposal which would seek to remove a major impediment to 
political success by leaving immigration to another date? It is 
going to be delayed 13 years in any event. A lot can happen in 
13 years. But if we did not have in immigration citizenship as 
an immediate consequence, I think it might alter a lot of 
attitudes and remove a major impediment to comprehensive 
reform. What do you think?
    Mr. Bond. Thank you, Senator. It may well allow for some 
time for consideration of other issues. But as you said about 
the question of same-sex marriage, the trend in this country is 
changing, as witnessed by the several States that have 
legalized and other States that have provided some kind of 
domestic partnership or something.
    I think the likelihood is also true about immigration as a 
general topic and what we ought to do about it. And although we 
put it off for 13 years, I would hate to think we would put it 
off for another 13, or even one 1 or 2.
    I think we have a President who wants to do a lot of things 
as quickly as he can, and I am glad that he is, because I think 
for too long we have put things aside and waited for a more 
proper moment.
    Senator Specter. I did not quite follow your view as to my 
suggestion that we make the immediate change on eliminating the 
fugitive status.
    Mr. Bond. Oh, I am sorry. I thought you were talking about 
delaying the prospects of immigration discussion of the general 
larger question. I misunderstood you.
    Senator Specter. Oh, no. I am not proposing delaying it. I 
am proposing since citizenship is not realistic for the 
undocumented 12 million for a long period of time, because even 
under the legislation which the Senate passed, comprehensive, 
people were satisfied they would put them at the end of the 
line, I do not think you can put them at the beginning of the 
line. But if you made a change and just removed the fugitive 
status, I think there would be a tremendous difference in the 
way we treat the undocumented immigrants.
    Mr. Bond. I think so, Senator. I am sorry. I completely 
misunderstood the question you were asking. But I think so.
    Senator Specter. Would you be willing to go along with 
deferring the citizenship question and try to move ahead with 
comprehensive reform by just removing the fugitive status?
    Mr. Bond. Senator, I am speaking here today on behalf of a 
small ``d'' democratic organization which makes decisions 
slowly, and I am not in a position to say, yes, we would, or we 
would not.
    Senator Specter. Well, would you care to give a personal 
opinion, having disclaimed your representative status?
    Mr. Bond. No, probably not.
    [Laughter.]
    Senator Specter. Okay. Fair enough. You have the right to 
remain silent.
    Mr. Bond. Thank you.
    Senator Specter. Nothing you say will be used against you.
    Thank you all very much for coming, and that concludes our 
hearing.
    One additional item. Senator Sessions requested that the 
record be kept open for a week, and we will honor that request.
    [Whereupon, at 11:38 a.m., the Committee was adjourned.]
    [Submissions for the record follow.]
    

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
